           Report No. D-2008-094                           May 20, 2008




         Air Force Air Combat Command Contracts




                                          Warning
“The enclosed document(s) is (are) the property of the Department of Defense, Office of
Inspector General. Release or disclosure of the contents is prohibited by DOD Directive
5106.1. Contents may be disclosed only to persons whose official duties require access
hereto. Contents cannot be released outside the Defense Department without the approval of
the Department of Defense, Office of Inspector General.”
  Additional Copies

  To request copies of this report, contact Mr. Benjamin Mehlman at (703) 604-9291
  (DSN 664-9291) or Susan J. Lippolis at (703) 604-9081 (DSN 664-9081).

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms
99th CONS             99th Contracting Squadron
ACC                   Air Combat Command
AFB                   Air Force Base
ANC                   Alaska Native Corporation
C.F.R.                Code of Federal Regulations
FAR                   Federal Acquisition Regulation
GAO                   Government Accountability Office
SMS                   Strategic Message Solutions, LLC
TAPS                  Thunderbirds Air Show Production Services
                           INSPECTOR GENERAL
                          DEPARTMENT OF DEFENSE
                           400 ARMY NAVY DRIVE
                      ARLINGTON, VIRGINIA 22202-4704
                                                                          May 20,2008

MEMORANDUM FOR ASSISTANT SECRETARY OF THE AIR FORCE
                (FINANCIAL MANAGEMENT AND COMPTROLLER)
               ASSISTANT SECRETARY OF THE AIR FORCE
                (ACQUISITION)

SUBJECT: Report on Air Force Air Combat Command Contracts
         (Report No. D2008-094) (U)


      (U) We are providing this report for infOimation and use. We considered
management comments on a draft of this report in preparing the final report.

        (U) Comments on the draft of this report conformed to the requirements of DoD
Directive 7650.3 and left no unresolved issues. Therefore, no additional comments are
required.

        (U) We appreciate the courtesies extended to the staff. Questions should be
directed to Mr. Benjamin Mehlman at (703) 604-9291 (DSN 664-9291) or Ms. Susan J.
Lippolis at (703) 604-9081 (DSN 664.9081). The team members are listed inside the
back cover.


                                      r~~-
                                           p~netto
                                Principal Assistant Inspector General
                                              for Audit




                                       Warning
"The enclosed document(s) is (are) the property of the Department of Defense, Office of
Inspector General. Release or disclosure of the contents is prohibited by DOD Directive
5106.1. Contents may be disclosed only to persons whose official duties require access
hereto. Contents cannot be released outside the Defense Department without the
approval of the Department of Defense, Office of Inspector General."


                        FOR OFFICIAL USE ONLY
                    Department of Defense Office of Inspector General
Report No. D-2008-094                                                                       May 20, 2008
      (Project No. D2007-D000AB-0202.000)

                    Air Force Air Combat Command Contracts (U)

                                      Executive Summary (U)

(U) Who Should Read This Report and Why? DoD and Air Force management
personnel should read this report because it discusses the appearance of conflicts of
interest regarding senior military personnel that affected the Government-contractor
relationship. Air Combat Command personnel should read this report because it
discusses contract procurement issues within Air Combat Command’s 99th Contracting
Squadron.

(U) Background. We began this audit as a result of a May 24, 2007, Defense Criminal
Investigative Service Southwest Field Office request for our assistance in support of an
investigation of allegations of unfair contract procurement and possible conflicts of
interest. The Defense Criminal Investigative Service specifically requested we review
eight contracts valued at $57.2 million awarded by the Air Combat Command to support
the Air Force Thunderbirds Air Show. The Thunderbirds, part of the Air Combat
Command, are a United States Air Force Demonstration Squadron located at Nellis
Air Force Base, Nevada. The Thunderbirds mission includes supporting Air Force
retention and recruiting programs, as well as demonstrating to the public the professional
competence of the Air Force members. The Thunderbirds represent the U.S. and its
Armed Forces to foreign nations to promote international goodwill. Air Combat
Command contracting support for the Thunderbirds is provided by the 99th Contracting
Squadron, which provides contract planning and contract administration to the Nellis
Air Force Base organization.

(U) Results. Air Combat Command and 99th Contracting Squadron officials violated the
Federal Acquisition Regulation for seven of eight contracts reviewed. In two contracts,
contracting officers awarded contracts on a sole-source basis without seeking
competition. In six contracts, 1 a price reasonableness determination was not documented
at the time of award. In an additional contract, the contracting officer awarded a contract
on a best value basis without adequate documentation to support the best value decision.
Also, on one of the contracts, the contracting officer did not include a standard Federal
Acquisition Regulation clause limiting subcontracting when awarding a contract to an
Alaska Native Corporation, thus allowing the contractor to subcontract 100 percent of the
work. See the table on page 5 for a summary of the conditions found. As a result, Air
Combat Command and 99th Contracting Squadron officials allowed contracts to be
directed to specific contractors without obtaining the benefits of competition.

(U) We identified internal control weaknesses for Air Combat Command’s 99th
Contracting Squadron in that the contracting officer did not follow the Federal

1
    (U) Of the six contracts, five are 99th Contracting Squadron contracts and one is an Air Combat
    Command Contracting Squadron contract.



                                                       i
Acquisition Regulation for obtaining full and open competition through the use of
competitive procedures, establishing price reasonableness, performing market research,
or setting aside acquisitions for small businesses.

(U) On January 30, 2008, in a memorandum to the Secretary of the Air Force, the DoD
Inspector General noted a completed investigation into alleged procurement
irregularities, improper influence, and other misconduct involving a December 16, 2005,
Thunderbirds Air Show Production Services contract award. The Inspector General
noted that the Defense Criminal Investigative Service investigation concluded the award
was tainted with improper influence, irregular procurement practices, and preferential
treatment in possible violation of DoD 5500.7-R, “Joint Ethics Regulation,” 2 and
standards of conduct applicable to Government-contractor relationships set forth in the
Federal Acquisition Regulation. The Inspector General stated the Commander, U.S.
Air Force Warfare Center displayed a pattern of behavior that gave an advantage to the
selected contractor constituting preferential treatment. In response to an April 21, 2008,
request of the Chairman and the Ranking Member, U.S. Senate Armed Services
Committee, the Inspector General tasked the Directorate for Investigations of Senior
Officials to further review Air Force senior official involvement in the Thunderbird Air
Show Production Services contract matter.

(U) We recommend that the Assistant Secretary of the Air Force for Acquisition issue
guidance to Air Force General Officers, military commanders, and Senior Executive
Service members within the Air Force that reemphasizes the need to eliminate the
appearance of conflicts of interest situations in Air Force contracting. We also
recommend that the Commander, Air Combat Command improve contracting internal
controls at the 99th Contracting Squadron. Refer to the Finding section for detailed
recommendations.

(U) Management Comments and Audit Response. The Office of the Assistant
Secretary of the Air Force concurred with our recommendations. The Air Force noted
that guidance co-issued by the Secretary of the Air Force and the Air Force Chief of Staff
on March 26, 2008; as well as guidance issued by the Assistant Secretary of the Air
Force for Acquisition on April 2, 2008; and guidance from the Air Force Deputy
Assistant Secretary (Contracting) issued on April 5, 2006, met the recommendation to
reemphasize to senior Air Force military and civilian personnel the need to eliminate the
appearance of conflicts of interest situations. The Air Force comments also noted that
the Air Combat Command will provide internal control guidance by June 15, 2008, and
subsequent training to reinforce the contracting officer’s best value determinations, to
reemphasize policies and procedures for dealing with improper conflicts of interest, and
to promote full and open competition in the acquisition process.

(U) We believe the Air Force comments were responsive to our recommendations and to
the issues identified in our report and no additional comments are needed. See the
Finding section for a discussion of the management comments and the Management
Comments section for the complete text of the comments.




2
    (U) Section 2635.101 of the Joint Ethics Regulation, “Basic obligation of public service,” states that
    employees shall not use public office for private gain and shall act impartially and not give preferential
    treatment to any private organization or individual.



                                                        ii
Table of Contents

Executive Summary                                                         i

Background                                                                1

Objective                                                                 2

Review of Internal Controls                                               2

Finding
     Air Combat Command Contracting                                       3

Appendixes
     A. Scope and Methodology                                            11
         Prior Coverage                                                  11
     B. ACC Organization Chart                                           13
     C. Code of Federal Regulations and Federal Acquisition Regulation
          Provisions                                                     14
     D. Summary of Contracts Reviewed                                    16
     E. Report Distribution                                              23

Management Comments
     Department of the Air Force                                         25




                     FOR OFFICIAL USE ONLY
Background (U)
    (U) We began this audit as a result of a May 24, 2007, Defense Criminal
    Investigative Service Southwest Field Office request for our assistance in support
    of an investigation of allegations of unfair contract procurement and possible
    conflicts of interest regarding the Air Force Thunderbirds Air Show. The Defense
    Criminal Investigative Service specifically requested we review eight contracts
    valued at $57.2 million.

    (U) The Thunderbirds. The Thunderbirds, part of the Air Combat Command
    (ACC), are a United States Air Force Demonstration Squadron located at Nellis
    Air Force Base (AFB), Nevada. The Thunderbirds’ mission includes supporting
    Air Force retention and recruiting programs, as well as demonstrating to the
    public the professional competence of the Air Force members. The Thunderbirds
    Squadron is composed of 8 pilots, 4 support officers, 3 civilians, and more than
    130 enlisted personnel performing in 25 career fields and represent the U.S. and
    its Armed Forces in promoting domestic and international goodwill. The
    Thunderbirds report directly to the 57th Wing at Nellis AFB. ACC contracting
    support for the Thunderbirds is provided by the 99th Contracting Squadron
    (99th CONS), which provides contract planning and contract administration to the
    Nellis AFB organization.

    (U) The Heritage Flight Program. The ACC established the United States Air
    Force Heritage Flight program in 1997 in support of the Air Force’s
    50th Anniversary. It involves state-of-the-art fighters flying in close formation
    with World War II and Korean War vintage fighters such as the P-51 Mustang
    and the F-86 Sabre. Its mission is to both safely and proudly display the
    evolution of United States Air Force airpower and to support the Air Force’s
    recruiting and retention efforts. ACC funds and manages the program.
    Thunderbirds Air Shows may include a Heritage Flight program.

    (U) Air Combat Command. The ACC, established June 1, 1992, at Langley
    AFB, Virginia, is the “primary force provider of combat airpower to America’s
    warfighting commands. ACC operates fighter, bomber, reconnaissance, battle-
    management, and electronic-combat aircraft” with a mission “to support global
    implementation of national security strategy” and comprises more than
    105,000 active-duty and civilian members. The command operates 15 major
    bases, including 13 non-ACC bases throughout the U.S. See Appendix B for an
    organization chart of ACC pertaining to the Thunderbirds and the 99th CONS.

    (U) The 57th Wing. A 57th Wing fact sheet states that the wing, “is the largest
    composite wing in the Air Force. It provides advanced aerospace training to
    world-wide combat air forces and showcases aerospace power to the world while
    overseeing the dynamic and challenging flying operations at Nellis.” The
    Thunderbirds report directly to the 57th Wing commander.

    (U) The 99th Air Base Wing and the 99th CONS. The 99th Air Base Wing
    currently oversees daily base operations at Nellis AFB such as personnel, finance,
    civil engineering, and supply. The 99th CONS provides contract planning and
    contract support to the Nellis AFB organizations. The squadron provides


                                         1
     contingency support to Air Force worldwide deployments and is the largest base-
     level contracting squadron in the ACC.

     (U) U.S. Air Force Warfare Center. The U.S. Air Force Warfare Center is
     located at Nellis AFB. The purpose of the U.S. Air Force Warfare Center is to
     ensure deployed forces are well-trained and well-equipped to conduct integrated
     combat operations. The U.S. Air Force Warfare Center is a primary subordinate
     unit reporting directly to the ACC. To execute its mission, the U.S. Air Force
     Warfare Center oversees operations of five wings, including the 53rd Wing at
     Eglin AFB, Florida; the 57th Wing, 98th Range Wing, and 99th Air Base Wing at
     Nellis AFB; and the 505th Command and Control Wing at Hurlburt Field,
     Florida.

     (U) Alaska Native Corporation Contracting. Alaska Native Corporations
     (ANC) are authorized under section 8(a) of the Small Business Act, with the
     purpose of helping eligible small disadvantaged concerns compete in the
     American economy through business development. They are regulated in the
     Code of Federal Regulations (C.F.R.) Section 13, Part 124, 8(a), “Business
     Development/Small Disadvantaged Business Status Determinations,” (2006).
     The Federal Acquisition Regulation (FAR) permits agencies to award contracts to
     an ANC on a sole-source basis if the Small Business Administration accepts the
     requirement on behalf of the ANC. Of the eight contracts we reviewed, the 99th
     CONS awarded three contracts to an ANC, which includes contract F44650-04-
     A-0001, contract FA4861-04-M-B272, and contract FA4861-06-C-B500.


Objective (U)
     (U) Our overall audit objective was to determine whether contracts awarded by
     the 99th CONS and other identified ACC organizations met FAR, DoD, and
     Air Force requirements. We reviewed pre-award and post-award contracting and
     the use of special 8(a) provisions relating to ANCs. See Appendix A for a
     discussion of the scope of our audit and prior coverage relating to contracting
     with ANCs.


Review of Internal Controls (U)
     (U) We identified internal control weaknesses for the 99th CONS as defined by
     DoD Instruction 5010.40, “Managers’ Internal Control (MIC) Program
     Procedures,” January 4, 2006. Contracting officials did not follow the FAR for
     obtaining full and open competition through the use of competitive procedures,
     establishing price reasonableness, performing market research, or setting aside
     acquisitions for small businesses. Implementing recommendations contained in
     this report will correct the internal control weaknesses we identified. A copy of
     this report will be sent to the senior official in charge of internal controls for
     ACC.




                                          2
Air Combat Command Contracting (U)
           (U) ACC and 99th CONS officials violated the FAR requirements in seven of
           eight ACC contracts reviewed. For example:

                •    (U) In two contracts, contracting officers awarded contracts on a sole-
                     source basis without seeking competition.

                •    (U) In six contracts, a fair and reasonable price was not documented at the
                     time of award. In a seventh contract, the contracting officer awarded a
                     contract on a best value basis without adequate documentation to support
                     the best value decision.

                •    (U) One small business ANC contract did not include a standard FAR
                     clause limiting subcontracting, which allowed the firm to subcontract
                     100 percent of the work.

           (U) The FAR violations occurred because contracting officials perceived that
           senior Air Force military officers and associated contractors had used the powers
           of their positions to impose their preference on the contracting officers to award
           the contracts to specific companies. For example, files for five of the eight
           contracts contained documentation to support the appearance of a conflict of
           interest in the Government-contractor relationship. 1 As a result, the ACC and the
           99th CONS allowed contracts to be directed to specific contractors without
           obtaining the benefits of competition.


Thunderbirds Air Show Support Contracting (U)
           (U) Thunderbirds Air Show Production Support Contracting. From June
           2003 through March 2005, the Air Force, through the 99th CONS, entered into
           five contracts with four different suppliers to enhance the audio and visual
           experience of Thunderbirds Air Show spectators. The five contracts dealt
           primarily with such items as the procurement of sound equipment and a mobile
           on-site communications trailer, technical support to operate the sound equipment,
           and training of Thunderbirds personnel to use the equipment.

           (U) During 2005, the Air Force consolidated the Thunderbirds audio and visual
           contract support into a single Thunderbirds Air Show Production Services
           (TAPS) support contract. The 99th CONS awarded the TAPS contract on
           December 14, 2005, to Strategic Message Solutions, LLC., (SMS). SMS was one
           of nine bidders for the contract. On January 17, 2006, SRO Media and Video
           West, Inc., filed a protest with the Government Accountability Office (GAO)
           challenging the impartiality of the bidding process leading to the TAPS award.
           SRO Media raised issues on the appearance of a conflict of interest involving
1
    (U) Our audit conclusion regarding the appearance of a conflict of interest was based on the application
    of FAR Part 3, “Improper Business Practices and Personal Conflicts of Interest” requirements. We did
    not examine possible conflicts of interest under the Joint Ethics Regulation and have provided our results
    to the Directorate for Investigations of Senior Officials for review as potential senior official misconduct.



                                                         3
           SMS principals who were “either former Air Force personnel or have privileged
           relationships with the Thunderbirds.” The protest specifically noted the role of
           SMS President and the former ACC Commander as an SMS principal. 2 The
           protest also noted that the ACC Commander asked the SMS President to
           coordinate a new sound and music production for the Thunderbirds in 2004. On
           February 13, 2006, GAO dismissed the protest because the Air Force was
           terminating the contract. On February 16, 2006, the Air Force terminated the
           TAPS contract with SMS for convenience. 3

           (U) On February 27, 2006, SMS filed suit against the Air Force in U.S. District
           Court for declaratory judgment, injunctive relief, unjust enrichment, intentional
           interference with contractual relations, and defamation. Specifically, the
           plaintiffs requested a declaratory judgment reversing the nonmandatory Stop
           Work Order and the Termination for Convenience; an injunction to prohibit the
           Air Force from converting plaintiffs’ proprietary work product and materials and
           the Thunderbirds’ continued use of SMS work in the “Thunderbird Awakenings”
           music presentation. Additionally, the plaintiffs sought payment for the finished
           product, damages in excess of $150,000, and attorneys’ fees and costs. 4 The U.S.
           Assistant Attorney stated to us that the District Court dismissed the suit without
           prejudice on September 6, 2007, and SMS subsequently filed a claim with the
           Air Force for outstanding services. On September 10, 2007, the Air Force and
           SMS subsequently settled the contract. SMS received payments totaling
           $2,581,844.


FAR Violations (U)
           (U) Seven of eight ACC contracts reviewed were in violation of one or more FAR
           requirements including awarding contracts on a sole-source basis without seeking
           competition, not documenting at time of award that fair and reasonable prices or
           best value were achieved, and subcontracting of ANC contracts in excess of FAR-
           prescribed limits. The table on the next page summarizes the violations for each
           contract reviewed. (See Appendix C for a summary of FAR requirements over
           competition, best value, fair and reasonable price determinations, small business
           acquisitions, conflicts of interest, and other areas.)




2
    (U) One of the four SMS principals served as ACC Commander from November 2001 until his retirement
    on January 1, 2005. The SMS President also serves as a Heritage Flight Pilot.
3
    (U) According to 99th CONS officials, TAPS-related work was subsequently brought “in-house” and
    performed by Air Force personnel at Hill Air Force Base, Utah.
4
    (U) The SMS suit claimed that on April 13, 2005, at the direction of the then-Air Force Chief of Staff,
    SMS demonstrated a Thunderbirds Air Show audio visual concept, “THUNDERVISION,” to the then-
    Air Force Vice Chief of Staff and other senior Air Force officers. SMS claimed that the then-Air Force
    Vice Chief of Staff procured $8.5 million and directed the SMS President and the then-Commander, U.S.
    Air Force Warfare Center to immediately execute the “THUNDERVISION” concept.



                                                      4
                 Contracts Reviewed Against FAR Requirements (U)

                         Sole-Source
                         Award Made          Fair and Reasonable
                           Without                                  Subcontracting
    Contract                                 Price or Best Value   Limits Clause Not
   Number (U)             Adequate              Decision Not         Included (U)
                         Justification        Documented (U)
                              (U)
F44650-04-A-0001                                     X
F26600-03-C-B004                                     X
FA4861-04-M-B098                                     X
FA4861-04-M-B272                                     X                    X
FA4861-05-M-B100               X                     X
FA4861-05-M-B105               X                     X
FA4861-06-D-C001                                     X
FA4861-06-C-B500

   (U) Competition Requirements. FAR Subpart 13.106-1(b)(1), “Soliciting from
   a Single Source,” states, “For purchases not exceeding the simplified acquisition
   threshold, contracting officers may solicit from one source if the contracting
   officer determines that the circumstances of the contract action deem only one
   source reasonably available.”

   (U) For two contracts, contracting officers violated FAR requirements and
   awarded contracts on a sole-source basis without providing adequate
   documentation for awarding a sole-source contract. For example, on contract
   FA4861-05-M-B100, awarded on February 16, 2005, and valued at $40,000, the
   contracting officer conducted market research after the issuance of a request for
   quotation to the contractor and after the contractor delivered the product. The
   contracting officers showed a predisposition to award to a preferred contractor.

   (U) In addition, on March 9, 2005, the contracting officer awarded contract
   FA4861-05-M-B105, valued at $49,300, on a sole-source basis because the buyer
   did not have time to solicit proposals from other contractors due to the shortened
   period for executing the contract. The acceptance show is an annual event, where
   a demonstration is presented to senior Air Force officials at the beginning of the
   Thunderbirds show season. Had proper planning occurred throughout the
   acquisition process, there would have been no need to justify an urgent
   procurement for the rental of a large viewing screen and graphics package for the
   Thunderbirds acceptance show.

   (U) Fair and Reasonable Prices. In six of eight contracts reviewed, a fair and
   reasonable price determination was not documented. FAR Part 15.402(a) states
   that, “Contracting officers must purchase supplies and services from responsible
   sources at fair and reasonable prices.” For example, contract F26600-03-C-B004
   of June 11, 2003, valued at $978,172, included no documentation for
   determination of a fair and reasonable price for the basic contract award. (Further


                                         5
     discussion of lack of fair and reasonable price determinations for this and the
     other five contracts identified is included in Appendix D.) ACC contracting
     officers needed to better document their price reasonableness determinations and
     make price reasonableness decisions based on the results of detailed analysis
     rather than from unsupported statements and opinions. The FAR requires
     documentation to support a price reasonableness determination. Without this
     analysis, there is no way to gauge whether the expenditure of funds is in the most
     cost-effective manner to conserve limited resources.

     (U) Best Value. Contract FA4861-04-M-B098, awarded March 4, 2004, was
     valued at $11,142 for Thunderbirds sound equipment and on-site communication
     trailer technical support. The contracting officer awarded the contract on a best
     value basis without adequate documentation to support that decision. The
     contracting officer stated the contract price was fair and reasonable based on best
     value. FAR Part 13.106-3(a) states that “before making award, the contracting
     officer must determine that the proposed price is fair and reasonable.” Although
     this assertion was made, the information in the contract file was incomplete and
     did not contain any analysis to clearly support the contracting officers’
     determination that the price paid was fair and reasonable.

     (U) Alaska Native Corporation Contracting. One small business ANC set-
     aside contract did not include a standard FAR clause for subcontracting limits.
     Contract FA4861-04-M-B272, awarded on September 2, 2004, to Chugach
     McKinley, Inc., was valued at $128,000. The absence of a contractor reference to
     FAR Clause 52.219-14, which limits the contractor to subcontract 49 percent of
     the cost of contract performance, allowed Chugach McKinley to subcontract
     100 percent of work to Framework Sound, the vendor favored by Air Force senior
     officers. The Air Force award of the contract to Chugach McKinley occurred
     before the receipt of a Small Business Administration acceptance letter dated
     September 14, 2004, requiring the addition of FAR Clause 52.219-14 to the
     contract.


Perceived Air Force Senior Officer Influence (U)
     (U) The ACC FAR contracting violations occurred because contracting officials
     perceived that senior Air Force military officers and associated contractors had
     used the powers of their positions to impose their preferences on the contracting
     officers to award the contracts to specific companies. For example, files for five
     of the eight contracts contained documentation to support the appearance of a
     conflict of interest from senior ranking Air Force officers that was contrary to
     FAR 3.101-1.

     (U) Air Force Thunderbirds Contracting Relationships. As a result of the
     perceived influence of senior ranking Air Force officers on contracting officials,
     contracting officers awarded contracts to SMS and associated contractors that had
     ties to SMS. In addition, since the senior Air Force officers directed the work to
     be performed, contracting officers could not effectively perform their
     responsibilities to award contracts on a fair and reasonable basis in accordance
     with the FAR.


                                          6
(U) Appearance of Conflict of Interest. Documentation in five of the eight
contract files supported the appearance of a conflict of interest in the
Government-contractor relationship. FAR Part 3.101-1, states “Government
business shall be conducted in a manner above reproach and, except as authorized
by statute or regulation, with complete impartiality and with preferential
treatment for none . . . . The general rule is to avoid strictly any conflict of
interest or even the appearance of a conflict of interest in Government-contractor
relationships.” Potential conflicts of interest occurred for Thunderbirds Air Show
audio and visual procurements. For example, on October 22, 2003, the SMS
President e-mailed the ACC Commander, proposing conceptual changes to
Thunderbirds music for the 2004 season and promising to start working on the
project in January 2004. On October 25, 2003, the commander of ACC endorsed
and forwarded the SMS President’s e-mail to the then-Air Force Chief of Staff
who responded the same day, stating: “[Commander of ACC], Thanks. I’ve
known [SMS President] a long time an [sic] no one cares more.”

(U) Senior ranking military officers were involved in directing the contracting
process, which violates the general rule of FAR Part 3.101-1. For example,
contract F26600-03-C-B004, modification P0001 of March 18, 2004, provided for
enhancements and upgrades. A July 9, 2004, contract modification price
negotiation memorandum to add $289,286 to the existing $978,172 contract noted
that, “These enhancements were directed by ACC/CC [Commander, ACC], and
the money earmarked for this purchase.” An internal 99th CONS July 15, 2004,
review of the price negotiation noted that acceptance of the contractor proposal
was not appropriate for an increase of almost one-third of the original contract
cost. On August 4, 2004, the contracting officer addressed the review comments
stating that the contract modification was a “highly political (four-star) direction
for this change to occur.” We concluded that the ACC Commander’s apparent
personal involvement in the contracting environment in this capacity constitutes
an appearance of a conflict of interest and potential undue influence on the
contracting officer.

(FOUO) Another example of an appearance of a conflict of interest surrounding
the 99th CONS was the award of contract FA4861-05-M-B105. The contract,
valued at $49,300, was awarded on March 9, 2005, to Sports Link, Ltd., for the
rental of a large viewing screen and a graphics package for the 2005 Thunderbirds
acceptance show. Documentation for contract FA4861-05-M-B105 contained
three invoices, dated before contract award, for work performed by the contractor
and completed in January 2005. In an undated memorandum to the 99th CONS,
the Thunderbirds Squadron Commander stated that the “[SMS President] and
[owner of Framework Sound, Inc.] were specifically tasked by AWC/CC
[Commander, Air Force Warfare Center] to complete the task and have identified
the sub-contractors with the specific technical and artistic skills required to satisfy
the requirements.” We concluded that the commander of the Air Force Warfare
Center’s direction for the award of this contract created the appearance of a
conflict of interest because only a contracting officer has the authority to assign
tasks against a contract. Further, the commander’s actions resulted in an
unauthorized commitment, which required subsequent Government ratification in
accordance with FAR Part 1.




                                      7
                    FOR OFFICIAL USE ONLY
Conclusion (U)
       (U) ACC contracting officials allowed contracts to be directed to specific contractors
       without obtaining the benefits of competition. For eight contracts reviewed, ACC
       contracting officers did not document price reasonableness for six contracts at the
       time of award. In one additional instance, the contracting officer awarded a contract
       on a best value basis without adequate documentation to support the best value
       decision. In addition, the contracting office did not include a standard FAR clause
       limiting subcontracting in one small business ANC contract, which allowed the firm
       to subcontract 100 percent of the work to a contractor preferred by senior Air Force
       officers. In two instances the 99th CONS did not comply with FAR requirements by
       awarding Thunderbirds contracts on a sole-source basis without seeking
       competition. 5 The ACC contracting practices allowed contracts to be directed to
       specific contractors without the use of competition.


Management Comments on the Finding and Audit Response
 (U)
       (U) The Associate Deputy Assistant Secretary of the Air Force (Contracting), Office
       of the Assistant Secretary of the Air Force for Acquisition neither concurred nor non-
       concurred with the finding but noted several planned actions resulting from issues
       raised in the report. A complete text of the management comments is in the
       Management Comments section of this report.

       (U) Air Force Comments on Internal Controls. The Air Force noted that the
       Office of the Assistant Secretary of the Air Force for Acquisition and the ACC would
       perform a procurement management review of the 99th CONS by June 15, 2008. The
       Air Force noted that the review findings will be used to revise and implement internal
       controls, training, and management policies and guidance.

       The Air Force also noted several contracting oversight and source selection changes
       implemented across the Service after the contracting actions noted in the finding took
       place. The Air Force noted such procedural changes included expansion of the
       Service’s Ombudsman program and mandatory legal reviews of key source selection
       documentation.

       (U) Air Force Comments on Heritage Flight Program. The Air Force also noted
       that an internal audit of the Heritage Flight Program would begin on or about
       April 10, 2008, with the objective of determining whether ACC personnel effectively



5
    (U) In four other instances, ACC contracting officers awarded sole-source contracts in a non-competitive
    environment within FAR requirements. In three of the four sole-source instances, contracts were
    awarded to Alaska Native Corporation contractors, which is permissible according to the FAR. In a
    fourth instance, awarding the contract on a sole-source basis was permissible according to FAR Part
    13.106-1(b)(1).



                                                       8
       managed selective aspects of the program including contracting processes and
       program participant appointments. 6

       (U) Air Force Comments on Report References to the ACC Organization. The
       Air Force noted that certain ACC organizational references in the draft report should
       be made more specific so as to avoid a perception that the audit findings apply to all
       contracting organizations across the ACC. The Air Force also noted that our audit
       was not accomplished on an ACC-wide basis. The Air Force provided us a matrix of
       specific technical comments in this regard.

       (U) Audit Response. We agree with planned and implemented Air Force actions
       relating to contracting internal controls and the Heritage Flight Program. We have
       revised references to ACC organizations where warranted in the final report. While
       our audit was limited to eight contracts at two ACC contracting locations, the
       importance of the findings require specific corrective actions and should not
       necessarily be limited to specific ACC or Air Force contracting offices.


Recommendations, Management Comments, and Audit
  Response (U)
           (U) 1. We recommend that the Assistant Secretary of the Air Force for
           Acquisition issue guidance to Air Force General Officers, military
           commanders, and Senior Executive Service members within the Air Force
           that reemphasizes the need to eliminate the appearance of conflicts of
           interest situations in Air Force contracting.

           (U) Air Force Comments. The Associate Deputy Assistant Secretary of the
           Air Force (Contracting), Office of the Assistant Secretary of the Air Force for
           Acquisition concurred with the recommendation. The Air Force noted that
           guidance co-issued by the Secretary of the Air Force and the Air Force Chief of
           Staff on March 26, 2008, as well guidance issued by the Assistant Secretary of the
           Air Force for Acquisition on April 2, 2008, and the Deputy Assistant Secretary
           (Contracting) on April 5, 2006, reemphasized to senior Air Force military and
           civilian personnel the need to eliminate the appearance of conflicts of interest
           situations. The guidance documents also emphasized ethical responsibilities
           while conducting procurements. The Air Force noted the Commander ACC had
           specifically distributed the March 26, 2008, memorandum to all commanders
           within ACC.

           (U) Audit Response. Air Force comments to Recommendation 1. were
           responsive and conform to requirements; thus, no additional comments are
           needed.

           (U) 2. We recommend that the Commander, Air Combat Command
           improve contracting internal controls by:

6
    An Air Force official subsequently confirmed to us that an audit of the Heritage Flight Program had
    commenced.



                                                       9
       (U) a. Emphasizing Air Combat Command contracting personnel
better document their price reasonableness and best value determinations
and make price reasonableness and best value decisions based on the results
of detailed analysis;

(U) Air Force Comments. Responding for the Commander ACC, the Associate
Deputy Assistant Secretary of the Air Force (Contracting), Office of the Assistant
Secretary of the Air Force for Acquisition concurred with Recommendation 2.a.,
noting that June 26, 2006, guidance of the Deputy Assistant Secretary
(Contracting) required review of fair and reasonable and best value determination
be included and evaluated in all Air Force Contracting Compliance Inspection
Checklists. Additionally, the Air Force noted that the ACC will issue guidance
by June 15, 2008, to ensure that inspections take place and to reemphasize
documentation requirements in squadron training.

       (U) b. Maintaining policies and procedures for avoiding improper
business practices and personal conflicts of interest and for dealing with
their apparent or actual occurrence;

(U) Air Force Comments. The Associate Deputy Assistant Secretary concurred
with Recommendation 2.b., noting that, by June 15, 2008, the ACC will re-
emphasize existing policies and procedures for dealing with actual or apparent
conflicts of interest.

       (U) c. Promoting full and open competition in the acquisition process;
and

(U) Air Force Comments. The Associate Deputy Assistant Secretary concurred
with Recommendation 2.c., noting that, by June 15, 2008, the ACC will issue
guidance to ensure that inspections for fair and reasonable price and best value
determination be included and evaluated in all Air Force Contracting Compliance
Inspection Checklists and be incorporated into squadron training.

      (U) d. Consistently including all required Federal Acquisition
Regulation requirements and clauses for Alaska Native Corporation
contracts awarded under the Small Business Act.

(U) Air Force Comments. The Associate Deputy Assistant Secretary concurred
with Recommendation 2.d., noting that, by June 15, 2008, the ACC will review to
ensure all FAR requirements have been included for ANC contracts awarded
under the Small Business Act and that this topic will be incorporated into
squadron training.

(U) Audit Response. Air Force comments to Recommendations 2.a. through 2.d.
were responsive and conform to requirements; thus, no additional comments are
needed.




                                    10
Appendix A. Scope and Methodology (U)
    (U) We conducted this performance audit from July 2007 to April 2008 in
    accordance with generally accepted government auditing standards. Those
    standards require that we plan and perform the audit to obtain sufficient,
    appropriate evidence to provide a reasonable basis for our findings and
    conclusions based on our audit objectives. We believe that the evidence obtained
    provides a reasonable basis for our findings and conclusions based on our
    objectives.

    (U) On May 24, 2007, the Defense Criminal Investigative Service requested our
    assistance in analyzing eight ACC contracts. Our overall audit objective was to
    determine whether contracts awarded by the 99th CONS and other identified
    ACC organizations met FAR, DoD, and Air Force requirements.

    (U) We collected, reviewed, and analyzed those eight contracts, valued at
    $57.2 million, and associated documentation awarded from June 2003 through
    December 2005. Specifically, we reviewed contract documentation such as the
    contract, contract modification, the statement of work, the price negotiation
    memorandum, source selection decision documents, and market research. We
    analyzed these contracts to determine whether the contract award was on a sole-
    source or competitive basis and whether the contract award was in accordance
    with the FAR. We reviewed and analyzed invoices to determine payment
    amounts to vendors for price reasonableness. We also examined selected
    associated contract documentation, including e-mails previously collected, and
    interviews performed by the Defense Criminal Investigative Service.

    (U) We interviewed the staffs of the 99th CONS, Nellis AFB, Nevada, and Air
    Combat Command Contracting Squadron, Langley AFB, Virginia, to discuss
    contracting practices and procedures, and to obtain information pertaining to the
    ACC organizational structure, the 99th CONS, and the Thunderbirds. We also
    reviewed prior Defense Criminal Investigative Service interviews of contracting
    and Senior Air Force military personnel who were no longer available for an
    interview at the time of our audit. We used this information to corroborate
    information contained in the contract files.

    (U) Use of Computer-Processed Data. We did not use computer-processed data
    to perform this audit.

    (U) Government Accountability Office High-Risk Area. GAO has identified
    several high-risk areas in DoD. This report provides coverage of the “DoD
    Contract Management” high-risk area.


Prior Coverage (U)
    (U) During the last 5 years, GAO issued one report discussing the increased use
    of ANCs. Unrestricted GAO reports can be accessed over the Internet at
    http://www.gao.gov.


                                        11
GAO (U)
    (U) GAO Report No. GAO-06-399, “Increased Use of Alaska Native
    Corporations’ Special 8(a) Provisions Calls for Tailored Oversight,” April 2006




                                       12
Appendix B. ACC Organization Chart (U)
    (U) The ACC, headquartered at Langley AFB, Virginia, is a major command in
    the United States Air Force, with more than 105,000 active-duty members and
    civilians making up the ACC workforce. The ACC headquarters funds and
    manages the Heritage Flight Program. The U.S. Air Force Warfare Center is
    located at Nellis AFB, Nevada, and reports directly to ACC. Two of the five
    wings that the U.S. Air Force Warfare Center oversees are located at Nellis AFB,
    including the 57th Wing and the 99th Air Base Wing. The Thunderbirds
    Squadron, located at Nellis AFB, reports to the 57th Wing. A subordinate unit of
    the 99th Air Base Wing is the 99th CONS. The 99th CONS provides contract
    planning and contract support to Nellis’ assigned units, including the 57th Wing
    and the Thunderbirds.


                  Air Combat                                   Heritage Flight
                  Command           Program funded and            Program
                (Langley AFB)        managed by ACC            (Langley AFB)




                 Air Warfare
                   Center
                (Nellis AFB)




  57th Flight                                               99th Air Base
    Wing                                                        Wing
 (Nellis AFB)                                               (Nellis AFB)




 Thunderbirds                        Contracting support         99th
 (Nellis AFB)                                                 Contracting
                                                               Squadron




                                       13
Appendix C. Code of Federal Regulations and
Federal Acquisition Regulation Provisions (U)
    (U) 5 C.F.R. Part 2635, Standards of Ethical Conduct for Employees of the
    Executive Branch. Section 2635.101(b)(7) and (b)(8) states employees shall act
    impartially and not give preferential treatment to any private organization or
    individual.

    (U) Federal Acquisition Regulation Requirements. The FAR includes several
    provisions to ensure competition in contracting, determination of fair and
    reasonable prices, and avoidance of improper business practices and personal
    conflicts of interest. For example:

    (U) FAR Part 1, “Federal Acquisition Regulation System.” Part 1 prescribes
    procedures for ratifying an unauthorized commitment. FAR Part 1.602-3(a)
    defines an unauthorized commitment as “an agreement that is not binding solely
    because the Government representative who made it lacked the authority to enter
    into that agreement on behalf of the Government.” FAR Part 1.602-3(b)(2) states,
    “The head of the contracting activity, unless a higher level official is designated
    by the agency, may ratify an unauthorized commitment.”

    (U) FAR Part 2, “Definitions of Words and Terms.” Part 2 defines words and
    terms that are frequently used in the FAR. FAR Part 2.101 defines an
    organizational conflict of interest as a situation where “a person is unable or
    potentially unable to render impartial assistance or advice to the Government, or
    the person’s objectivity in performing the contract work is or might be otherwise
    impaired, or a person has an unfair competitive advantage.”

    (U) FAR Part 3, “Improper Business Practices and Personal Conflicts of
    Interest.” Part 3 prescribes policies and procedures for avoiding improper
    business practices and personal conflicts of interest and for dealing with their
    apparent or actual occurrence. FAR Part 3.101-1 states, “The general rule is to
    avoid strictly any conflict of interest or even the appearance of a conflict of
    interest in Government-contractor relationships.”

    (U) FAR Part 6, “Competition Requirements.” Part 6 prescribes policies and
    procedures to promote full and open competition in the acquisition process and to
    provide for full and open competition, full and open competition after exclusion
    of sources, and other than full and open competition. FAR Part 6.101(b) states,
    “Contracting officers shall provide for full and open competition through the use
    of competitive procedure(s) contained in this subpart that are best suited to the
    circumstances of the contract action.” FAR Part 6.204(a) states, “To fulfill
    statutory requirements relating to section 8(a) of the Small Business Act . . .
    contracting officers may limit competition to eligible 8(a) contractors.” FAR
    Part 6.301(c)(1) states that the lack of planning is not a viable excuse for
    awarding a contract on a sole-source basis.

    (U) FAR Part 10, “Market Research.” Part 10 prescribes policies and
    procedures for conducting market research to arrive at the most suitable approach


                                        14
to acquiring, distributing, and supporting supplies and services. FAR
Part 10.001(a)(2) states, “Agencies must . . . conduct market research appropriate
to the circumstances . . . before soliciting offers for acquisitions with an estimated
value in excess of the simplified acquisition threshold . . . on an ongoing basis.”

(U) FAR Part 13, “Simplified Acquisition Procedures.” Part 13 prescribes
policies and procedures for the acquisition of supplies and services, including
construction, research and development, and commercial items the aggregate
amount of which does not exceed the simplified acquisition threshold. FAR
Part 13.003(a) states, “Agencies shall use simplified acquisition procedures to the
maximum extent practicable for all purchases of supplies or services not
exceeding the simplified acquisition threshold.” FAR Part 13.104 states, “The
contracting officer must promote competition to the maximum extent practicable
to obtain supplies and services from the source whose offer is the most
advantageous to the Government.” FAR Part 13.106-1(b)(1) states, “For
purchases not exceeding the simplified acquisition threshold, contracting officers
may solicit from one source if the contracting officer determines that the
circumstances of the contract action deem only one source reasonably available.”
FAR Part 13.106-3(a) states “Before making award, the contracting officer must
determine that the proposed price is fair and reasonable.” FAR Part 13.106-
3(a)(2)(i) states, “If only one response is received, . . . the contracting officer is to
include a statement of price reasonableness in the contract file, and the
contracting officer may base the statement on market research.”

(U) FAR Part 15, “Contracting by Negotiation.” Part 15 prescribes policies
and procedures governing competitive and noncompetitive negotiated
acquisitions. FAR Part 15.101-1(c) states that tradeoffs are permitted “among
cost or price and non-cost factors and allows the Government to accept other than
the lowest priced proposal.” FAR Part 15.402(a) states that “Contracting officers
must purchase supplies and services from responsible sources at fair and
reasonable prices.” FAR Part 15.404-1(b)(2) describes the various methods a
contracting officer may use when making a price reasonableness determination.
FAR Part 15.406-3(a) states, “The contracting officer shall document in the
contract file the principal elements of the negotiated agreement.”

(U) FAR Part 19, “Small Business Programs.” Part 19 implements the
acquisition-related sections of the Small Business Act. FAR Part 19.202-6(a)
states, “The fair market price shall be the price achieved in accordance with the
reasonable price guidelines in 15.404-1(b).” FAR Part 19.502-2(b) states, “The
contracting officer shall set aside any acquisition over $100,000 for small
business participation when there is a reasonable expectation that (1) offers will
be obtained from at least two responsible small business concerns . . . ; and (2)
award will be made at fair market prices.” FAR Part 19.805-1(b) states, “Where
an acquisition exceeds the competitive threshold, the SBA [Small Business
Administration] may accept the requirement for a sole source 8(a) award if . . .
SBA accepts the requirement on behalf of a concern owned by an Indian tribe or
an Alaska Native Corporation.” FAR Part 19.806(a) states, “The contracting
officer shall price the 8(a) contract in accordance with Subpart 15.4.” FAR
Part 19.806(b) states, “An 8(a) contract, sole source or competitive, may not be
awarded if the price of the contract results in a cost to the contracting agency
which exceeds a fair market price.”


                                       15
   Appendix D. Summary of Contracts Reviewed (U)
             (U) We reviewed the contents of eight contract files to determine whether the
             contracts, as requested by Defense Criminal Investigation Service, were awarded
             according to the FAR. A summary of the results is provided below.
         Contract                 Appearance of a                    Competitive                         Price
         Data (U)             Conflict of Interest (U)            Environment (U)                Reasonableness (U)
1. F44650-04-A-0001:        None. No contract file          Not competed. However,            No. The contracting
Heritage Flight–CASE,1      documentation indicating        award of contract                 officer did not include a
10/1/03, $3,675,140.88.     involvement of ranking          sole-source to 8(a) ANC           price reasonableness
                            military officers.              justified under FAR 19 and        determination.
                                                            FAR 13.
2. F26600-03-C-B004:        Yes. A senior ranking           Yes. Four companies               No. The contracting
Comm. Trailer–STS,          military officer appeared to    solicited, resulting in two       officer did not include a
6/11/03, $978,172.          influence the modification      proposals received.               price reasonableness
Modification 3/18/04,       award.                                                            determination.
$289,002.71.
3. FA4861-04-M-B098:        Yes. A senior ranking           Not competed. However,            No. The contracting
2004 Music–Framework        military officer appeared to    FAR Part 13.106-1(b)(1)           officer did not include
Sound, Inc., 3/4/04,        influence the selection         permits a sole-source award       analysis to support the
$11,142.                    process.                        under these circumstances.        best value decision.
4. FA4861-04-M-B272:        Yes. Senior ranking military    Not competed. However,            No. The contracting
Update Old Trailer          officers appeared to            contracting office justified in   officer did not include
Equipment–Chugach           influence the award.            awarding to 8(a) ANC, but         documentation to support
McKinley, Inc., 9/2/04,                                     not in allowing                   a price reasonableness
$128,000.                                                   100 percent of work to be         determination.
                                                            subcontracted.
5. FA4861-05-M-B100:        None. No contract file          No. Contractor executed           No. Determination made
2005 Music–Framework        documentation indicating        work prior to completion of       after work had been
Sound, Inc., 2/16/05,       involvement of ranking          required market research.         completed.
$40,000.                    military officers.
6. FA4861-05-M-B105:        Yes. Senior ranking military    No. Awarded on sole-              No. The contracting
Jumbo–Tron Rental and       officer influenced the award    source basis, not justifiable     officer did not include
Graphics Package–           of the contract.                since market research             documentation to support
Sportslink, 3/9/05,                                         revealed multiple contractors     a price reasonableness
$49,300.                                                    capable of satisfying             determination.
                                                            requirements.
7. FA4861-06-D-C001:        Yes. A senior ranking           Yes. Competitive                  No. Best Value Contract.
TAPS–SMS, 12/16/05,         military officer influenced     environment existed.              Source Selection
$9,985,158.77. Total        the award.                                                        Authority did not
contract value with                                                                           adequately justify.
options, $49,925,795.
8. FA4861-06-C-B500:        None. No contract file          Not competed. Contracting         Yes. Preliminary PNM2
Custodial Services–         documentation indicating        office justified in awarding      in contract file was
Chugach Industries, Inc.,   involvement of ranking          sole-source to 8(a) ANC           sufficient.
10/25/05, $2,152,293.82.    military officers.              under FAR 19 and FAR 6.
   1
       (U) CASE: Chenega Advanced Solutions and Engineering.
   2
       (U) PNM: Price Negotiation Memorandum.




                                                           16
(U) Contract F44650-04-A-0001. The ACC Contracting Squadron awarded this
contract to Chenega Advanced Solutions and Engineering, an ANC, on October 1,
2003, under a blanket purchase agreement to provide support to the Heritage
Flight Program. The blanket purchase agreement included a ceiling of
$5,000,000; however, only $3,675,140.88 was actually invoiced. The contractor
was to notify the civilian Heritage Flight pilots of the air show, confirm the pilots’
availability in accordance with the provided schedule, accept and resolve
performance billing details, and pay the pilots within 30 days of approved
receipts. The contractor was paid a fixed percentage of the amount billed by the
pilots for reimbursement of expenses incurred to include ferry and actual flight
duration at air shows.

        (U) Price Reasonableness. The contract file did not contain
documentation (such as a price negotiation memorandum) to establish how the
contracting officer determined the prices paid were fair and reasonable. Without
such documentation the Government cannot be assured that the prices paid were
fair and reasonable.

(U) Contract F26600-03-C-B004. The 99th CONS awarded this contract to
Solomon Technical Sales on June 11, 2003, in the amount of $978,172 for the
procurement of a mobile communications equipment trailer. The Thunderbirds
Aerial Demonstration Squadron required this trailer to enhance the audio and
visual experience for air show spectators. The 99th CONS issued a contract
modification on March 18, 2004, in the amount of $289,002.71 for further
enhancements and upgrades to the communications trailer.

        (U) Appearance of a Conflict of Interest. The contracting officer stated
in a July 9, 2004, price negotiation memorandum for the modification that “These
enhancements were directed by ACC/CC [Commander, ACC], and the money
earmarked for this purchase.” In accompanying review sheets, an appointed
contracting office reviewer noted on July 15, 2004, that the customer review and
acceptance of the contractor proposal were not appropriate for an increase of
almost one-third the original contract cost. On August 4, 2004, the contract
specialist addressed the reviewer’s comments in the corrective actions section by
writing, “highly political (four-star) direction for this change to occur.” The
commander of ACC’s apparent personal involvement in the contracting
environment constitutes an appearance of a conflict of interest and potentially
undue influence on the contracting officer which is to be avoided under FAR
3.101-1.

        (U) Price Reasonableness. The 99th CONS contracting officer did not
include a price negotiation memorandum for the basic contract as required by
FAR Parts 15.402(a) and 15.406-3. A price negotiation memorandum for the
modification indicated there is no historical data to compare prices because of the
uniqueness of the enhancements. The contracting officer must determine a price
to be fair and reasonable in accordance with the FAR even though the products
may be of a research and development nature. On July 15, 2004, an appointed
contracting office reviewer concluded that “having the contractor provide a price
breakout of the components would aid in determining mark up and potentially
discourage unnecessary costs.” We concluded that adequate documentation did
not exist to support a price reasonableness determination.


                                     17
(U) Contract FA4861-04-M-B098. The 99th CONS awarded this contract to
Framework Sound, Inc., on March 4, 2004, in the amount of $11,142 for sound
equipment and on-site technical support for the Thunderbirds communication
trailer.

        (U) Appearance of a Conflict of Interest. In an undated memorandum
for the record, the contracting officer stated, “This requirement was given as an
extremely high priority as [Commander, U.S. Air Force Warfare Center] was
personally involved.” The commander of the Air Force Warfare Center’s
apparent personal involvement in the contracting environment constitutes an
appearance of a conflict of interest, as defined in FAR Part 3.101-1.

        (U) Price Reasonableness. The contracting officer stated in an undated
memorandum for the record that the contract price is fair and reasonable based on
best value. We disagree with this assertion because the contracting officer did not
include any analysis in the file to support the best value decision.

(U) Contract FA4861-04-M-B272. The 99th CONS awarded this contract to
Chugach McKinley, Inc., an ANC, on September 2, 2004, in the amount of
$128,000 for audio hardware and accessories and training of Thunderbirds
personnel to use this equipment. Contracting officials awarded this contract to
update equipment in the old communications trailer while the new one was being
completed.

        (FOUO) Appearance of a Conflict of Interest. On May 11, 2004, the
SMS President e-mailed the then-commander of the U.S. Air Force Warfare
Center, criticizing the work of the F26600-03-C-B004 prime contractor, Solomon
Technical Sales, in developing a new communications trailer. On August 27,
2004, the SMS President e-mailed the commander of the 57thWing at Nellis AFB.
The president of SMS stated he believed the prime contractor was not able to
deliver the desired new Thunderbirds communications trailer and proposed an
upgrade of the existing communication trailer until the new trailer was ready.
The SMS President also suggested that Framework Sound, Inc., be awarded a
contract to make the upgrades. The commander of the 57th Wing forwarded the
e-mail on August 28, 2004, to the Director of Communications, ACC, Langley
AFB, Virginia, and a 57th Wing Resource Advisor stating that, “This is what I
want to do. The experts ([Owner of Framework Sound] and [SMS President]) say
it is what we need and I believe them. I want to press asap.” The commander of
the 57th Wing, the ACC Director of Communications, and the resource advisor at
the 57th Wing subsequently arranged on August 30, 2004, that $120,000 in
funding be set aside for the project.

        (U) On September 2, 2004, the 99th CONS awarded a $128,000 contract
to Chugach McKinley, Inc., an ANC. Awarding a contract on a sole-source basis
when the dollar value exceeds the competitive threshold of $100,000 is
permissible when the Small Business Administration accepts the requirement on
behalf of the ANC. The 99th CONS awarded the contract before coordinating the
award with the Small Business Administration. As such, a required contract
clause that limits subcontracting by the prime contractor was not inserted into the
contract. Chugach McKinley, Inc., subsequently subcontracted 100 percent of the
work ($120,000) to Framework Sound, Inc., while keeping an $8,000 general and


                                    18
                   FOR OFFICIAL USE ONLY
administration fee as the prime contractor. We concluded that the commander of
the 57th Wing and the ACC Director of Communications apparently used their
positions to unduly influence the award of a contract to a preferred source. This
preferential treatment and lack of impartiality violates FAR Part 3.

        (U) Competitive Environment. In a September 10, 2004, memorandum
to the Small Business Administration, the Director of Business Operations at the
99th CONS requested permission to award a contract to Chugach McKinley, Inc.
The Small Business Administration accepted the requirement on September 14,
2004. However, contracting officials violated FAR Part 19 by awarding the
contract on September 2, 2004, which was before Small Business Administration
acceptance. The September 14, 2004, acceptance letter from the Small Business
Administration to the 99th CONS required the contracting officer to include FAR
Clause 52.219-14 to the contract, which limits the contractor to subcontracting
49 percent of the cost of contract performance. The contracting officer did not
insert this clause into the contract because the contract had already been awarded
and fully subcontracted to Framework Sound, Inc.

        (U) Price Reasonableness. In a memorandum dated September 3, 2004,
the contracting officer stated, “Based on conversations with Thunderbird
technical personnel and my own knowledge of the procedures, I determine the
price to be fair and reasonable.” We do not believe the contracting officer’s
rationale in the memorandum for the record is sufficient documentation to support
the price paid for this contract. The memorandum for the record did not include
any in-depth analysis to reach this conclusion.

(U) Contract FA4861-05-M-B100. The 99th CONS awarded this contract on
February 16, 2005, to Framework Sound, Inc., in the amount of $40,000 to update
and modify the 2004 Thunderbirds Music Program for the 2005 season.

        (U) Competitive Environment. In a memorandum signed and dated
February 16, 2005, the contract specialist stated the item was awarded to a single
source using the authority in FAR Part 13.106-1(b)(1). However, the contract
specialist did not provide rationale to support the determination for awarding the
contract on a sole-source basis. In the same memorandum, the contract specialist
stated market research was conducted by orally contacting two contractors, who
then provided quotes. The contract specialist provided a request for quotation on
February 2, 2005, to Framework Sound, Inc., for the 2005 Thunderbirds Music
Program, with a delivery date of February 4, 2005. The contracting officer
conducted market research after a request for quotation was issued to the
contractor and after the contractor delivered the product.

        (U) Price Reasonableness. The contract specialist stated in a
memorandum for the record dated February 16, 2005, that $40,000 was a fair and
reasonable price based on the market research that was performed in accordance
with FAR Part 13.106-3(a)(2)(i). However, the contract specialist knew the exact
cost of the work before the market research was conducted.

(U) Contract FA4861-05-M-B105. The 99th CONS awarded this contract to
Sports Link, Ltd., on March 9, 2005, in the amount of $49,300 for the rental of a



                                    19
large viewing screen and a graphics package for the 2005 Thunderbirds
acceptance show.

        (U) Appearance of a Conflict of Interest. The contract file contained
three invoices, dated before the date of contract award totaling the signed contract
amount of $49,300. In an undated memorandum to the 99th CONS, a member of
the Thunderbirds Squadron stated that the Commander, U.S. Air Force Warfare
Center specifically tasked Framework Sound, Inc., to complete the work
represented by the invoices. The Commander, U.S. Air Force Warfare Center’s
direction for the award of this contract created an appearance of a conflict of
interest because only a contracting officer has the authority to assign tasks against
a contract. Further, his actions resulted in an unauthorized commitment, which
requires ratification in accordance with FAR Part 1.

        (U) Competitive Environment. The 99th CONS officials made the
award to Sports Link, Ltd., on a sole-source basis due to the unusual and
compelling urgency of the requirement under the authority of FAR Part 13.106-
1(b)(1). The buyer identified four other sources to determine whether they were
capable of providing the large viewing screens, but due to the shortened time
frame for executing the contract, the buyer did not have time to solicit proposals
from the other contractors. FAR Part 6.301(c)(1) states that the lack of planning
is not a viable excuse for awarding a contract on a sole-source basis.

        (U) Price Reasonableness. In a memorandum for the record dated
March 2, 2005, the contracting officer made the statement that the price paid was
fair and reasonable based on market research. The contracting officer also stated
that market research revealed the price would be in excess of $100,000. The
buyer performed market research the preceding day, indicating the price would
not exceed $50,000. The contracting officer made a price reasonableness
determination based on inaccurate data. We conclude the contracting officer did
an inadequate job documenting the price as fair and reasonable in accordance
with FAR Part 13.106-3(a).

(U) Contract FA4861-06-D-C001. The 99th CONS awarded this contract to
SMS on December 16, 2005, in the amount of $9,985,158.77 for sound
production presentation at Thunderbirds air shows. The contract was awarded as
a basic contract with four option years. The total value of the contract, including
all options, was $49,925,795.

        (U) Appearance of a Conflict of Interest. On January 30, 2008, the
Inspector General, DoD issued a memorandum for the Secretary of the Air Force
on a completed investigation into alleged procurement irregularities, improper
influence, and other misconduct involving the December 16, 2005, contract award
to SMS. The Defense Criminal Investigative Service investigation of SMS found
that the December 2005 award to SMS was tainted with improper influence,
irregular procurement practices, and preferential treatment in possible violation of
DoD 5500.7-R, “Joint Ethics Regulation,” and standards of conduct applicable to
Government-contractor relationships set forth in the FAR. The memorandum
stated the Commander, U.S. Air Force Warfare Center displayed a pattern of
behavior that gave an advantage to SMS in competing for the contract and so
constituted preferential treatment. Further, the commander enabled SMS to gain a


                                     20
competitive advantage as a result of its participation in the demonstration project
and the commander’s involvement in the source selection process after earlier
efforts to obtain a sole-source contract with SMS failed. FAR Subpart 3.101
states, “Government business shall be conducted in a manner above reproach . . .
with complete impartiality and with preferential treatment for none.” FAR
Subpart 2.101 defines an “organizational conflict of interest,” in part, as a
situation where a person is unable to render impartial advice because of
relationships with other persons.

        (FOUO) Competitive Environment. The 99th CONS awarded this
contract in a competitive environment where nine proposals were received. The
contracting officer utilized the FedBizOpps Web site (the Government point-of-
entry for procurement opportunities over $25,000) to identify possible vendors for
this procurement. Contracting officials were inconsistent when applying
methodologies in rating the proposals. For example, MC 2, a competitor, was
considered unresponsive to the request for proposal because it failed to provide
financial records when requested. However, when SMS was requested to provide
financial records, the SMS President stated, “SMS acknowledges receipt of
amendment #02 to the RFP, but as you know, SMS was specifically created for
the primary purpose of delivering THUNDERVISION to the USAF. As such this
newly created entity does not have the detailed financial records sought in
Amendment 02. [sic]”

(FOUO) The contracting office rated          the same as another competitor,
        in past performance evaluations. In evaluation of the three required past
performances,        received two “somewhat relevant” and one “very relevant”
past performance ratings.               , on the other hand, received two “relevant”
and one “very relevant” past performance ratings.         were given significant
confidence ratings in the final past performance evaluation.

        (FOUO) Price Reasonableness. In the Source Selection Decision
document, dated December 13, 2005, the Source Selection Authority made the
determination that SMS provided the best value to the Government. According to
the Source Selection Decision document, the price-cost rating factor should
contribute substantially to the decision. The only difference between           and
             , aside from price, was the ratings they received in the strategic
insight factor. The strategic insight factor for       was rated blue/low risk while
              was rated yellow/moderate risk. However, yellow/moderate was
defined as a correctable condition in the Proposal Analysis Report. The Source
Selection Authority did not adequately justify why a $25 million premium for the
services of SMS was determined to be the best value. Further, the SMS proposal
price of $49.9 million was $20 million more than the ceiling of the Government
estimate.

       (U) SMS Payment Requests. On December 16, 2005, the day of the
TAPS contract award, SMS electronically submitted a $1,990,000 prompt
payment request through the U.S. Government’s Wide Area Work Flow System
(the System). The request was rejected by the System. On December 20, 2005,
4 days after the TAPS contract award, SMS successfully re-submitted the
$1,990,000 claim, which the System accepted for processing. The claim
represented 50 percent of the value of TAPS contract line item 0001 for product


                                     21

                    FOR OFFICIAL USE ONLY
design and development. The contracting officer approved the payment in the
System after receiving authorization from the Thunderbirds Commander that the
commander had reviewed SMS-submitted theatrical design, story boards, and
support draft plan as called for in line item 0001. SMS received payment on
December 28, 2005.

       (FOUO) The contracting officer unilaterally terminated the TAPS contract
for convenience on February 16, 2006.


                 The contracting officer noted SMS did not submit a settlement
proposal and consequently, on April 17, 2006, he extended the settlement
proposal deadline to May 18, 2006.

       (FOUO)




       (U) TAPS contract modification P00001, signed and dated September 10,
2007, by the Air Force and SMS confirmed the right of SMS to retain the
$1,990,000 for services performed. The Air Force also agreed to pay SMS
$274,927 for submitted termination expenses and an additional $316,917 for
contract line item 0001 deliverables and related materials.

(U) Contract FA4861-06-C-B500. The 99th CONS awarded this contract to
Chugach Industries, Inc., an ANC, on October 25, 2005, in the amount
$2,152,293.82. The 99th CONS awarded this contract for base-wide custodial
services at Nellis AFB, Nevada.




                                   22

                   FOR OFFICIAL USE ONLY
Appendix E. Report Distribution (U)

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Acquisition Resources and Analysis
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Joint Staff
Director, Joint Staff

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Assistant Secretary of the Air Force (Acquisition)
Commander, Air Combat Command
Auditor General, Department of the Air Force

Combatant Command
Inspector General, U.S. Joint Forces Command

Non-Defense Federal Organization
Office of Management and Budget




                                          23
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform




                                      24
Department of the Air Force Comments (U)




                     25
26
     Final Report
       Reference




     Attachment
     5 omitted




     Attachment
     5 omitted




27
28
29
30
31
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Contract Management prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Richard B. Jolliffe
Bruce A. Burton
Benjamin A. Mehlman
Susan J. Lippolis
Chrispian M. Brake
Celeste McKay
Michael V. D’Ignazio
Meredith H. Johnson
